UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




            Continuity of Operations


                Report No. OIG-AMR-55-07-03




                                              September 2007
                                       TABLE OF CONTENTS

BACKGROUND ......................................................................................1

OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................2

FINDINGS ..............................................................................................3

NLRB DISASTER EXPERIENCES............................................................3

COORDINATION OF COOP RESPONSIBILITIES......................................4

FPC 65 REQUIREMENTS .......................................................................4
  Essential Functions.............................................................................4
  Delegation of Authority ........................................................................6
  Orders of Succession ...........................................................................6
  Alternate Operating Facilities ..............................................................7
  Devolution of Control and Direction.....................................................8
  Interoperable Communications............................................................8
  Vital Files, Records, and Databases .....................................................9
  Test, Training, and Exercise Program ................................................10
  Reconstitution ...................................................................................10
RECOMMENDATIONS..........................................................................11

APPENDIX

        Memorandum from the Director of Administration, Response
        to Inspector General's Draft Report "Continuity of
        Operations: (OIG-AMR-55)," dated September 14, 2007.
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. As of February 1, 2007, the NLRB had approximately 1,765 full-
time equivalents that are located at Headquarters, 51 field offices throughout
the country, and 3 satellite offices for administrative law judges.

Federal Preparedness Circular (FPC) 65, Federal Executive Branch Continuity
of Operations (COOP), which was issued on July 26, 1999, and updated on
June 15, 2004, provides guidance for use in developing COOP plans. COOP
planning includes plans and procedures that: delineate essential functions;
specify succession to office and the emergency delegation of authority; provide
for the safekeeping of vital records and databases; identify alternate operating
facilities; provide for interoperable communications; and validate the capability
through regularly scheduled tests, training, and exercises. A viable COOP plan
must be capable of implementation both with and without warning, be
operational within 12 hours, and capable of maintaining sustained operations
until normal business activities can be reconstituted, which may be up to 30
days. Reconstitution, the last phase of a COOP situation, is the process by
which the surviving or replacement agency personnel resume normal agency
operations from the original or replacement primary operating facility.

FPC 65 requires that all Federal Executive Branch departments, agencies, and
independent organizations, regardless of location, have in place a viable COOP
capability to ensure continued performance of essential functions from
alternate operating sites during any emergency or situation that may disrupt
normal operations. The Agency is responsible for maintaining COOP plans for
Headquarters and all subordinate elements. The NLRB is classified as a
Category III agency based on its COOP responsibilities.

The Agency is responsible for appointing a senior Federal government executive
as an emergency coordinator to serve as program manager and agency point of
contact for coordinating agency COOP activities. The former Deputy Director of
Administration was the senior executive for COOP at the NLRB. The Director of
Administration is currently assuming that responsibility. The Security Branch
(Security) Chief is responsible for Headquarters security and the Headquarters’
COOP. The Procurement and Facilities Branch’s (PFB) Management and
Program Analyst is responsible for maintaining all other plans.




                                        1
                 OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to evaluate the NLRB’s COOP plans to determine
whether they meet Federal guidelines and have been tested.

We reviewed FPC 65, updated on June 15, 2004, by the Department of
Homeland Security; Presidential Decision Directive 67, Enduring Constitutional
Government and Continuity of Government Operations, issued October 21,
1998; National Security Presidential Directive (NSPD) 51, National Continuity
Policy, dated May 9, 2007; and National Communications System Directive 3-
10, Minimum Requirements for Continuity Communications Capabilities, dated
July 25, 2007, to determine the requirements for Federal Executive Branch
departments and agencies for use in developing contingency plans and
programs for COOP.

We reviewed Agency guidance including Administrative Policies and Procedures
Manual (APPM) Chapter REC-6, Vital Records Program, dated March 23, 2006;
APPM Chapter IT-1, Computer Security Program Information Systems Security
Policy, dated April 2, 2003; NLRB 2006 Disaster Recovery Plan and Procedures,
dated October 30, 2006; Division of Operations-Management (Operations-
Management) memorandums; and union agreements. We reviewed the NLRA
and NLRB Rules and Regulations and Statements of Procedures to identify
functions that should be classified as essential. We also reviewed position
descriptions to determine responsibility for COOP.

We reviewed the COOP plans for Headquarters, field, and satellite offices to
determine whether the plans contained all the required elements and whether
they were sufficient to perform essential functions in an emergency or situation
that may disrupt normal operations. We also interviewed staff in Operations-
Management, Regional Offices, Division of Administration, and Office of the
Chief Information Officer (OCIO) to identify policy and clarify procedures
performed. We interviewed the Department of Labor’s Regional Solicitor to
confirm the alternate location for one field office. Also, we reviewed other
agencies experience regarding telework.

We reviewed Agency actions taken in response to the September 11, 2001,
terrorist attack on the World Trade Center and Hurricane Katrina in August
2005. Our analysis focused on whether current COOP plans applied
experiences from those events.

This audit was performed in accordance with generally accepted government
auditing standards during the period February 2007 through August 2007. We
conducted this audit at NLRB Headquarters in Washington, DC.




                                       2
                                  FINDINGS

The Agency did not apply experiences from previous disasters into its COOP
plans. Also, the Agency did not effectively coordinate COOP activities within
the Division of Administration.

The Agency’s COOP plans do not meet the requirements of FPC 65, the most
important of which is the proper identification of essential functions. Not all
COOP plans identified essential functions. For the plans that did, the essential
functions were only generally identified as case handling, payroll, and
protection of employees and property. This general description does not meet
the criteria established by FPC 65. Because the essential functions were not
properly identified the remaining elements of COOP plans would not support
the Agency’s essential functions in an emergency.


NLRB DISASTER EXPERIENCES

Agency operations were affected by two disasters: the terrorist attack at the
World Trade Center on September 11, 2001, and Hurricane Katrina which
made landfall on August 29, 2005. Although COOP plans were not in place at
the time of the attack on the World Trade Center, they were in place for
Hurricane Katrina.

The COOP plan for Region 15 was not adequate to enable continued operations
of the Region after Hurricane Katrina made landfall on the Gulf Coast. Despite
this, Agency mangers responded quickly and provided services in a relatively
short period of time. The effective actions taken were not, however,
incorporated into COOP plans that have since been updated.

The COOP plan for Region 15 called for initiating a telephone tree in the event
of an emergency situation, and if telephone service was not available, the
managers were to meet at a predetermined location. As a result of the
widespread destruction by Hurricane Katrina, the planned use of the telephone
tree was hampered because employees were not able to remain in their homes
and land lines in the area were not operational. Also, the Region was unable to
use its alternate operating facility. The Agency communicated with employees
by posting information on NLRB’s Web site.

An action that appears to have enhanced the Agency’s COOP abilities after the
terrorist attack at the World Trade Center and Hurricane Katrina was the
assignment of at least one other field office to provide support for essential
functions. Also, in the aftermath of Hurricane Katrina, the Agency used the




                                       3
Case Activity Tracking System (CATS) to retrieve case information related to
essential functions.

The use of the Agency’s Web site to communicate with employees, identification
of other offices prior to a COOP event, and the utilization of CATS to retrieve
case information were important for ensuring the continuation of essential
functions. Despite reviewing COOP plans after Hurricane Katrina, the use of
the Agency’s Web site to communicate with employees was only included in 22
field office COOP plans. Only 17 field office COOP plans contained language
that other field offices could perform essential functions and only 6 of these
specified which offices would assume responsibility. None of the field office
COOP plans addressed the use of CATS.


COORDINATION OF COOP RESPONSIBILITIES

Each agency is responsible for appointing a senior Federal government
executive as an emergency coordinator to serve as program manager and
agency point of contact for coordinating COOP activities. This includes
planning, programming, and budgeting for a viable and executable COOP
program that conforms to FPC 65.

The Agency did not effectively coordinate its COOP program. Two offices within
the Division of Administration performed similar duties and were not aware of
the other’s involvement. Both the Security Chief and Management and
Program Analyst in PFB were maintaining COOP plans for field and satellite
offices. The majority of copies maintained by Security were outdated compared
to the plans retained by PFB. After we brought this to the Security Chief’s
attention, he stated that he is now making copies of the COOP plans
maintained by PFB and that he will obtain updates from now on.


FPC 65 REQUIREMENTS

Essential Functions

The identification and prioritization of essential functions is at the core of the
COOP planning process because it establishes the parameters and priorities
that drive the Agency’s efforts in all other planning and preparedness areas.
Essential functions, as identified by FPC 65, are those that enable agencies to
provide vital services, exercise civil authority, maintain the safety and well-
being of the general populace, and sustain the industrial/economic base in
an emergency.




                                         4
To properly identify essential functions, plans must:

   1. Determine which functions must be continued under all circumstances.
   2. Prioritize these functions based on the criticality and time sensitivity of
      the function.
   3. Establish staffing, resource requirements, and other supporting
      activities needed to perform these functions within 12 hours, or less, of
      COOP activation and until normal business activities can resume, which
      may be up to 30 days.
   4. Identify mission critical data needed to perform essential functions.
   5. Identify consumable office supplies needed to perform essential
      functions.
   6. Include a statement that indicates all functions deemed not essential
      will be deferred.

Not all COOP plans identified essential functions. For the plans that did, such
as Headquarters, the essential functions were only generally identified as case
handling, payroll, and protection of employees and property. This general
description does not meet the criteria established by FPC 65 as outlined above.
By including all case handling as an essential function, the COOP plans
provide no guidance or direction in prioritizing the Agency’s resources and
efforts in an emergency.

Under the criteria established by FPC 65, Agency managers should review the
Agency’s case handling process and determine which functions are vital,
exercise the Agency’s civil authority, maintain the well-being of the general
public, and are needed to sustain the Nation’s industrial and economic base in
an emergency. Some of the factors that the Agency should consider are the
statutory priority under the NLRA for certain types of allegations, the
requirement that allegations of unfair labor practice violations must be filed
and served within 6 months of the allegation, and need to ensure the industrial
peace during an emergency. To some extent, the COOP planning process may
also benefit from the Agency’s experience with Impact Analysis.

Payroll is not an essential function because the Agency’s system automatically
defaults to pay employees if time and attendance information is not entered in
the system and corrections can and are made for time and attendance errors.
There are, however, important administrative functions that do not have an
automatic feature to them that should be considered for inclusion in COOP
plans. For example, the Agency’s contracting function may be essential to
replace supplies and equipment needed for the continued operation of the
Agency. Likewise, limited facilities and budget functions may be essential to
those activities as well. The absence of those types of essential Agency




                                       5
functions from the planning process could severely hamper the ability of the
Agency to have continued operations in an emergency. The Director of
Administration said that the Agency will re-evaluate the identification of
essential functions.

Delegation of Authority

FPC 65 states that to ensure a rapid response to any emergency situation
requiring COOP plan implementation, agencies should pre-delegate authorities
for making policy determinations and decisions at Headquarters, Regional,
field, satellite, and other agency locations, as appropriate. To ensure legal
sufficiency and clarity, FPC 65 requires that these delegations contain specific
information for officials to make key policy decisions during a COOP situation.
Some delegation requirements include delineating the limits of authority,
authority to re-delegate, circumstances under which the authorities would be
exercised, and when they would terminate.

Prior to the COOP planning process, the Board and General Counsel delegated
certain case handling and administrative responsibilities to Regional Directors
and staff at Headquarters. Those delegations have been promulgated through
the Federal Register process and COOP plans note these delegations. The
plans, however, do not address any further delegation of authority that may be
necessary in a COOP situation. For example, the Headquarters COOP plan
does not provide for the delegation of administrative functions outside of
officials located at Headquarters. In the event that those officials are not
available, it is not clear how the Agency could perform essential functions
without administrative support.

Orders of Succession

Orders of succession provide for the assumption of senior agency offices during
an emergency in the event that any of those officials are unavailable to execute
their legal duties. According to FPC 65, agencies are responsible for
establishing, promulgating, and maintaining orders of succession to key
positions, including to the agency head and other key agency leadership
positions. COOP plans are required to establish rules and procedures that
designated officials must follow when facing a succession to office and include
the conditions under which the succession will take place, method of
notification, and any limitations on the authority delegated. Also, NSPD 51
states that emphasis will be placed upon geographic dispersion of leadership,
staff, and infrastructure in order to increase survivability and maintain
uninterrupted Government functions.




                                       6
Ten field and satellite office COOP plans did not contain orders of succession
and three field offices included lines of succession that were not clear. For
example, two field offices stated that the Regional Director's duties were to be
shared between the Regional Attorney and the Assistant to the Regional
Director, but did not specify which duties each individual would be responsible
for performing. Another field office stated that the Regional Attorney or the
Assistant to the Regional Director would succeed the Regional Director, but it
did not indicate the order for succession. One of the 14 Headquarters’ lines of
succession contained a nonexistent position, and others were not of sufficient
depth to ensure succession.

The COOP plans did not establish the rules and procedures that designated
officials must follow when facing the issue of succession to office. They also
did not identify the method of notification and any temporal, geographical, or
organizational limitations, if any, of authorities.

The line of succession for the Agency head is not geographically dispersed. At
a minimum, the COOP plan must establish an order of succession to Agency
head and have geographic dispersion to ensure that leadership roles and
responsibilities are transferred in all contingencies. This requirement would
also apply to the General Counsel because of his specific statutory authority
under the NLRA. For Regional Directors, the lines of succession should also be
geographically dispersed.

Alternate Operating Facilities

All agencies must identify and prepare alternate operating facilities as part of
their COOP plans. FPC 65 states that agencies should take maximum
advantage of existing field infrastructures and give consideration to other
options, such as telework, virtual offices, and joint or shared facilities.

Headquarters and most field and satellite office COOP plans identified an
alternate operating facility. Four field office COOP plans did not identify an
alternate location and one plan for a Resident Office identified two different
alternate locations, but not which one should be utilized first.

The NLRB does not have an Agency-wide policy regarding telework. However,
most field office COOP plans provide that employees can be directed to work
from home or from an alternate location. The Agency’s telework guidance is
contained in union agreements; however, those agreements do not cover all
employees. Also, these agreements generally set limits on telework and do not
provide instructions that would be useful in an emergency, such as how to
access files.



                                        7
Without an Agency telework policy, the efforts to use telework in a COOP
situation would be hampered because employees would not have the necessary
direction and resources to successfully telework. A lesson that could be
learned from other agencies is that a telework policy enhances a COOP
program and can help to ensure that essential functions are continued.

Devolution of Control and Direction

Devolution is the capability to transfer statutory authority and responsibility
for essential functions from an agency's primary operating staff and facilities to
other employees and facilities, and to sustain that operations capability for an
extended period. This would be needed if an office was unavailable to or
incapable of supporting the execution of its essential functions from either its
primary or alternate location.

The Headquarters’ COOP plan did not identify a devolution site or develop a
devolution plan to ensure the continuation of the Agency’s mission-essential
functions if Headquarters or its alternate facility were rendered unavailable.
The Security Chief stated that if the alternate facility was not available, the
Agency would use another field office. This is a reactive solution and is not a
substitute for a well thought-out plan.

A majority of field and satellite office COOP plans did not designate a
devolution site. Additionally, the field and satellite office COOP plans did not
address the devolution of control and direction requirements. Of the 22 field
and satellite offices that did designate devolution sites, only 11 identified the
likely triggers that would initiate or activate the devolution plan. As our
experience shows, it is too late to establish the devolution process after the
disaster occurs. Proper planning would alleviate these difficulties.

Interoperable Communications

The ability of an agency to execute its essential functions at its alternate
operating facilities is dependent upon the identification, availability, and
redundancy of critical communications and information technology (IT)
systems to support connectivity between key government leadership, internal
elements, other agencies, critical customers, and the public during crisis,
disasters, or wartime conditions. All necessary and required communications
and IT capabilities must be operational as soon as possible following COOP
plan activation, but in all cases within 12 hours of notification. A viable
interoperable communications program must include access to data, systems,
and services necessary to conduct essential functions and support activities.




                                         8
National Communications System Directive 3-10 requires the Agency to have a
secure and non-secure telephone and facsimile, unclassified and secret data
networks, a high frequency automatic link establishment radio, secure satellite
telephone, certain mobile in-transit communications capabilities, and priority
access and restoration. An executive department or agency may request an
exemption from one or more of the minimum communications requirements by
submitting a request by letter to the Manager of the National Communications
System. Lack of funds is not considered a valid justification for an exemption.

Plans included provisions for contacting Agency personnel through the use of a
telephone tree. However, as experienced after Hurricane Katrina, the telephone
tree may not be an effective means of communication in all circumstances.
Additionally, the telephone tree does not meet the requirements of FPC 65 and
Directive 3-10. The Director of Administration stated that she believes the
Agency will be requesting an exemption to Directive 3-10 requirements.

Vital Files, Records, and Databases

The identification, protection, and ready availability of electronic and hardcopy
documents, references, records, and information systems needed to support
essential functions during a COOP situation is a critical element of a viable
COOP plan. Agency personnel must have access to and be able to use these
records and systems in conducting their essential functions. The COOP plan
must account for the identification and protection of the vital records, systems,
and data management software and equipment necessary to perform essential
functions, and to reconstitute normal agency operations after the emergency.
To the extent possible, agencies should pre-position and update on a regular
basis duplicate records or back-up electronic files.

The COOP plans did not address the vital files, records, and database
requirements. Despite this fact, the Agency is making progress on the use of
electronic case files in Regional Offices. On May 11, 2005, Operations-
Management issued a memorandum setting forth a standardized system for
naming and storing electronic documents. The OCIO is currently working on a
project to consolidate all Regional Office servers in two different locations.
Operations-Management issued a memorandum on April 20, 2007, instructing
Regions to fully implement standardized storage conventions within two
months of switching over to the new servers. Electronic files would be useful in
a COOP situation in that they would be available remotely and their use should
be addressed in all Agency COOP plans.




                                        9
Test, Training, and Exercise Program

All agencies must plan, conduct, and document periodic tests, training, and
exercises to demonstrate the COOP plan’s viability and identify deficiencies.
This includes developing a multi-year plan that addresses requirements,
resources to support these activities, and a planning calendar. Deficiencies
and actions taken to correct them must be documented. Also, the agency
training program must include annual COOP awareness briefing for the entire
workforce and annual team training for COOP personnel.

The former Deputy Director of Administration and Security Chief participated
in the Federal Emergency Management Agency’s Forward Challenge, a table top
exercise, in June 2006. This exercise, however, is not sufficient to satisfy the
test, training, and exercise requirements in FPC 65. The Agency failed to
provide annual COOP awareness briefing for the entire workforce, annual team
training for COOP personnel, and an annual exercise that incorporates the
deliberate and pre-planned movement of the COOP personnel to an alternate
operating facility. The Security Chief stated that the Agency does not have the
funding for an annual exercise that incorporates the deliberate and pre-
planned movement of COOP personnel to an alternate operating facility.

None of the COOP plans contained provisions for a test, training, and exercise
program. Also, the Agency does not have a multi-year test, training, and
exercise plan. Without an effective program, the NLRB has no assurance that
it is capable of supporting the continued execution of the Agency’s mission-
essential functions during a COOP situation.

Reconstitution

Reconstitution is the last phase of a COOP event and is the process by which
surviving and/or replacement agency personnel resume normal agency
operations from the original or replacement primary operating facility.
Agencies must identify and outline a plan to return to normal operations once
agency heads or their successors determine reconstitution operations can
begin to resume normal operations. The Agency must have an executable plan
to transition from COOP status to normal operations once the threat or
disruption has passed. This includes pre-planning options for reconstitution of
an agency regardless of the level of disruption and must include movement
from the COOP or devolution location to the originating operating facility or a
new operating site if necessary.

The COOP plans are not sufficient for the Agency to have a smooth transition
from a relocation site to a new or restored facility. The Headquarters’ COOP
plan only contained provisions for the notification of employees. Only 36 field
and satellite office COOP plans contained information on reconstitution and


                                       10
none of them contained information for the coordination and pre-planning of
options or outlined procedures necessary to affect a smooth transition from a
relocation site.


                            RECOMMENDATIONS

We recommend that the Director of Administration:

1.    Work with Agency management to identify essential functions.

2.    Ensure that all Agency offices have a COOP plan that complies with FPC
      65 requirements.

3.    Develop and implement an Agency policy for telework and incorporate
      the use of telework in all Agency COOP plans.




                                      11
